C'OCKLE
2311 Douglas Street AX L E-Mail Address:

Omaha, Nebraska 68102-1214 egal B 3 pels contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-881

HUONG L. TRAN and RICHARD HAZEN,
Petitioners,
v.
CITY OF HOLMES BEACH, FLORIDA; CITY
OFFICIALS in Official Capacity; FLORIDA
DEPARTMENT OF ENVIRONMENTAL PROTECTION;
DEPARTMENT OFFICIALS in Official Capacity,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT CITY OF
HOLMES BEACH, FLORIDA’S RESPONSE TO PETITION FOR WRIT OF CERTIORARI in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 4752 words, excluding the parts that are exempted by Supreme Court Rule

33.1(d), as needed.

Subscribed and sworn to before me this 26th day of March, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v Chi,
‘ RENEE J. GOSS 9.

 

! My Comm. Exp. September 5, 2023
Notary Public Affiant 40649
